            valuation


             eport

     INFORMATION ASSURANCE AT CENTRAL DESIGN ACTIVITIES


Report No. D-2001-046                         February 7, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD
  Home Page at: www.dodig.osd.mil or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
AIS                   Automated Information System
CDA                   Central Design Activity
DAA                   Designated Approving Authority
DITSCAP               DoD Information Technology Security Certification and
                         Accreditation Process
DISA                  Defense Information Systems Agency
IT                    Information Technology
OMB                   Office of Management and Budget
SRR                   Security Readiness Review
STIG                  Security Technical Implementation Guide
                        Office of the Inspector General, DoD
  Report No. D-2001-046                                             February 7, 2001
     (Project No. D2000PT-0121)
     (Formerly Project No. 0PT-0112)

               Information Assurance at Central Design Activities

                                 Executive Summary

Introduction. For the purpose of this evaluation, a Central Design Activity is defined
as a designated organization (or segment thereof) within a component that, at a
minimum, has responsibility for designing, converting, coding, testing, documenting,
or subsequently maintaining or modifying computer operating or applications software
for use at more than one location. For this evaluation, we visited an Army, a Navy,
and an Air Force Central Design Activity.

Central Design Activities use software development environments to develop and
maintain the software for which they are responsible. A software development
environment is an automated information system that provides an integrated suite of
tools to aid the development of software in a particular language or for a particular
application.

Information assurance comprises the operations to protect and defend information and
information systems by ensuring their availability, integrity, authentication,
confidentiality, and nonrepudiation. Information assurance includes providing for
restoration of information systems by incorporating protection, detection, and reaction
capabilities.

Objectives. This evaluation had two objectives. The first objective was to determine
whether information assurance policies and management controls were working to
protect the software development environments and software libraries the Central
Design Activities use for DoD software development and maintenance. The second
objective was to evaluate whether the controls the Central Design Activities have in
place ensure that the DoD systems developed and maintained by the Central Design
Activities do not contain malicious code.

Results. The three Central Design Activities we visited had not certified or accredited
their software development environments as required by DoD policy. In addition,
those Central Design Activities did not participate in the accreditation of software
development environments created for them and housed at Defense Information
Systems Agency facilities. As a result, there is an increased risk of unauthorized access
to and modification of DoD software (finding A).

The management controls were inadequate to detect and remove malicious code from
some software products in development at the three Central Design Activities we
visited. As a result, those Central Design Activities cannot ensure that software
produced by them does not contain malicious code (finding B).
Summary of Recommendations. We recommend that the Assistant Secretary of
Defense (Command, Control, Communications, and Intelligence) update DoD
Instruction 5200.40 to explicitly include software development environments as systems
that need to be certified and accredited; establish a program of guidance and oversight
to ensure the certification and accreditation of software development environments;
establish a performance measure for designated approving authorities to report the
accreditation status of software development environments; and hold periodic reviews
of that performance measure, with the goal of 100 percent accreditation.

We recommend that the Commander, Defense Information Systems Agency Western
Hemisphere, require Defense Enterprise Computing Center Commanders to fully
involve Central Design Activity user representatives in the certification and
accreditation process for software development environments that the Defense
Information Systems Agency provides for Central Design Activities as well as provide
Central Design Activity Commanders the details of any vulnerabilities discovered
during the accreditation.

We also recommend that the Assistant Secretary of Defense (Command, Control,
Communications, and Intelligence) update DoD policy to require that the development
and maintenance of DoD software include a review of each new and changed line of
final source code to deter, detect, and remove any malicious code.

Management Comments. The Assistant Secretary of Defense (Command, Control,
Communications, and Intelligence) partially concurred with the recommendations and
initiated several actions that meet their intent. The Defense Information Systems
Agency concurred with the recommendations and directed the Defense Enterprise
Computing Centers to involve the Central Design Activities in the Security Readiness
Review process and to provide them the results of the reviews. The Assistant Secretary
concurred in theory with updating DoD policy to include the review of each new and
changed line of code; however, he stated that the implementation would likely exceed
the available resources and may require future budgeting before implementation could
begin. A discussion of management comments is in the Finding section of the report
and the complete text is in the Management Comments section.

Evaluation Response. The comments from the Assistant Secretary were partially
responsive. We believe the Assistant Secretary’s proposed actions to determine
measurements for the management of DoD software development environments and to
review certification and accreditation procedures and status of DoD software
development environments meet the intent of the recommendation if continued on a
cyclic basis. We also believe the formal review of each new and changed line of final
source code is practical. The Assistant Secretary needs to establish a time-phased
approach to ensure the certification and accreditation of the DoD Component and DoD
contractor software development environments, and provide a time-phased approach to
updating DoD policy to require that the development and maintenance of DoD software
include a review of each new and changed line of final source code. We request that
the Assistant Secretary provide additional comments by April 9, 2001.




                                           ii
Table of Contents

Executive Summary                                                         i

Introduction
     Background                                                           1
     Objectives                                                           2

Findings
     A. Software Development Environment Security                         3
     B. Malicious Code Detection                                          9

Appendixes
     A. Evaluation Process
          Scope and Methodology                                          13
          Management Control Program                                     14
          Prior Coverage                                                 14
     B. Military Department Central Design Activities                    16
     C. Effective Development Practices                                  17
     D. Report Distribution                                              18

Management Comments
     Assistant Secretary of Defense (Command, Control, Communications,
       and Intelligence)                                                 21
     Defense Information Systems Agency                                  24
     Department of the Army                                              27
Background
    Central Design Activities. For the purpose of this evaluation, a Central Design
    Activity (CDA) is defined as a designated organization (or segment thereof)
    within a component that, at a minimum, has responsibility for designing,
    converting, coding, testing, documenting, or subsequently maintaining or
    modifying computer operating or applications software for use at more than one
    location. The Army, the Navy, and the Air Force have a total of 17 CDAs. A
    list of those CDAs is provided in Appendix B. For this evaluation, we visited
    an Army, a Navy, and an Air Force CDA. We visited the Software
    Development Center Lee (Army), the Fleet Material Support Office (Navy), and
    the Materiel Systems Group (Air Force). Other DoD agencies have CDAs also.
    The Marine Corps, the Defense Finance and Accounting Service, the Director
    for Information and Technology, and the Defense Logistics Agency list CDA
    organizations.

            Software Development Center Lee. The Software Development Center
    Lee in Fort Lee, Virginia, reports to the Army Information Systems Software
    Center located at Fort Belvoir, Virginia. As one of the largest centralized
    software development centers within the Army, the Lee center employs more
    than 200 civilian and military personnel. The Software Development Center
    Lee is responsible for the development and maintenance of more than 30
    automated information systems (AISs) for the Army. It produces logistics,
    engineering, procurement, and subsistence systems for the Army Deputy Chief
    of Staff for Logistics; the Defense Commissary Agency; the Army
    Procurement, Research and Analysis Office; and other DoD agencies.

            Fleet Material Support Office. The Fleet Material Support Office in
    Machanicsburg, Pennsylvania, is a major field activity of the Naval Supply
    Systems Command. The Fleet Material Support Office has more than 900
    employees and provides information technology (IT) products and services to
    the Navy, DoD, and other Federal organizations. Its systems integrate supply,
    financial, maintenance, procurement, and other logistics functions through
    networks, telecommunications, and interrelated databases.

           Materiel Systems Group. The Materiel Systems Group in Dayton,
    Ohio, is a direct reporting unit of the Electronic Systems Center, Air Force
    Materiel Command, Hanscom Air Force Base, Massachusetts. The Materiel
    Systems Group supports the Air Force information goals through acquiring,
    developing, maintaining, reengineering, and providing technical services for
    information systems. The Materiel Systems Group has 576 employees and
    manages more than 160 of the Air Force Materiel Command’s logistics
    information systems.

    Software Development Environments. A software development environment
    is an AIS that includes the facilities, hardware, software, firmware, procedures,
    and documentation needed to perform software development. A software
    development environment includes all networks and systems used for
    development or maintenance of a project’s software. The CDAs use software
    development environments to develop and maintain the software for which they
                                        1
     are responsible. A software development environment provides an integrated
     suite of tools to aid the development of software in a particular language or for a
     particular application. Usually, the tools consist of a compiler and editor and
     may include a debugger and source code manager. The software development
     environment may also include computer-aided software engineering (CASE)
     tools, simulators, documentation tools, database management systems, and
     operating systems.

     Information Assurance. Information assurance comprises the operations to
     protect and defend information and information systems by ensuring their
     availability, integrity, authentication, confidentiality, and nonrepudiation.
     Information assurance includes providing for restoration of information systems
     by incorporating protection, detection, and reaction capabilities.

     Information can be erased or become inaccessible, resulting in loss of
     availability. When information is modified in unexpected ways, the result is a
     loss of integrity. A loss of integrity occurs when unauthorized changes are
     made to information, whether by human error or intentional tampering. To
     make information available to those who need it and who can be trusted with it,
     organizations use authentication and authorization. Confidentiality is lost when
     an unauthorized person is allowed to read or copy classified information.
     Security is strong when the means of authentication cannot later be refuted,
     which is known as nonrepudiation.


Objectives
     This evaluation had two objectives. The first was to determine whether
     information assurance policies and management controls were working to
     protect the software development environments and software libraries the CDAs
     use for DoD software development and maintenance. The second was to
     evaluate whether the controls the CDAs have in place ensure that the DoD
     systems developed and maintained by the CDAs do not contain malicious code.
     See Appendix A for a discussion of the scope and methodology and prior
     coverage.




                                          2
           A. Software Development Environment
              Security
           The three CDAs we visited had not certified or accredited their software
           development environments as required by DoD policy. In addition, the
           CDAs did not participate in the accreditation of software development
           environments created for them and housed at Defense Information
           Systems Agency (DISA) facilities. Those problems occurred because of
           a lack of management oversight of software development environment
           security. As a result, there is an increased risk of unauthorized access to
           and modification of DoD software.


Policy Requirements for Software Development Environment
  Security
    Office of Management and Budget Circular A-130. The Paperwork
    Reduction Act of 1980, Public Law 96-511, establishes the Office of
    Management and Budget (OMB) as responsible for developing information
    security policies and overseeing agency practices. The OMB provided guidance
    for agencies in OMB Circular A-130, Appendix III, “Security of Federal
    Automated Information Resources,” February 8, 1996. Since 1985, that
    circular has directed agencies to implement an adequate level of security for all
    AISs, ensuring effective and accurate operations as well as continuity of
    operations for systems that support critical agency functions.

    The OMB Circular A-130, Appendix III, also specifies that a management
    official should authorize in writing the use of each system before beginning or
    significantly changing the use of the system. By authorizing use of a system, a
    manager accepts the risks associated with it.

    DoD Directive 5200.28. DoD Directive 5200.28, “Security Requirements for
    Automated Information Systems (AISs),” March 21, 1998, provides mandatory,
    minimum AIS security requirements and specifies that more stringent
    requirements may be necessary for selected systems based on an assessment of
    acceptable levels of risk. It stresses the importance of a life-cycle management
    approach to implementing computer security requirements and applies to
    systems processing unclassified, sensitive-but-unclassified, and classified
    information. DoD Directive 5200.28 specifies that the accreditation of an AIS
    be supported by a certification plan, a risk analysis of the AIS in its operational
    environment, an evaluation of the security safeguards, and a certification report,
    all approved by the Designated Approving Authority (DAA). DoD
    Directive 5200.28 states that the AIS developer is responsible for ensuring the
    early and continuous involvement of the users, information system security
    officers, data owners, and DAAs in defining and implementing security
    requirements of the AIS. The directive also requires an evaluation plan for the
    AIS that shows progress toward meeting full compliance with stated security
    requirements and safeguards.

                                         3
    DoD Instruction 5200.40. DoD Instruction 5200.40, “DoD Information
    Technology Security Certification and Accreditation Process (DITSCAP),”
    December 30, 1997, (the DITSCAP) establishes a DoD standard infrastructure-
    centric approach that protects and secures the Defense Information
    Infrastructure. The activities presented in the DITSCAP standardize the
    certification and accreditation process. The four-phase process considers the
    system mission, environment, and architecture while assessing the impact of
    operation of that system on the Defense Information Infrastructure.

    The DITSCAP applies to the acquisition, operation, and sustainment of any
    DoD system that collects, stores, transmits, or processes unclassified or
    classified information. It applies to any IT or information system life cycle,
    including the development of new IT systems, the development of prototype IT
    systems, the reconfiguration or upgrade of existing systems, and legacy systems.
    The key to the DITSCAP is the agreement between the IT system program
    manager, the DAA, the Certifying Authority, and the user representative.
    Those managers resolve critical schedule, budget, security, functionality, and
    performance issues. Resolution of those issues is documented in the System
    Security Authorization Agreement that is used to guide and document the results
    of the certification and accreditation process. The objective is to use the System
    Security Authorization Agreement to establish a binding agreement on the level
    of security required before system development begins or before changes to a
    system are made.

    Phase 3 of the process, the Validation phase, includes activities to evaluate the
    fully integrated system operating in a specified computing environment with an
    acceptable level of residual risk.


Accreditation of CDA-Housed Software Development
  Environments
    None of the three CDAs we visited, Army Software Development Center Lee,
    Navy Fleet Material Support Office, and Air Force Materiel Systems Group,
    had developed System Security Authorization Agreements for their software
    development environments. Two of the three CDAs, Fleet Material Support
    Office and Materiel Systems Group, had not accredited their software
    development environments, and the third, Software Development Center Lee,
    had an expired accreditation letter. The Fleet Material Support Office DAA had
    signed an Interim Authority to Operate on December 2, 1999, that was not
    based on any formal process or risk assessment. Only one of the three CDAs,
    Software Development Center Lee, conducted periodic security exercises or
    vulnerability assessments to determine the adequacy of security measures and to
    identify security deficiencies. In summary, none of the three CDAs had
    accredited their software development environments nor could they provide the
    System Security Authorization Agreements, which document the certification
    and accreditation process results required by DITSCAP, for their software
    development environments.

                                         4
Accreditation of DISA-Housed Software Development
  Environments
    The Navy Fleet Material Support Office and the Air Force Materiel Systems
    Group used software development environments that were housed at DISA
    facilities.

    The Navy Fleet Material Support Office Interim Authority to Operate did not
    include the DISA housed mainframe software development environments. The
    Navy CDA considered the operation of the mainframe to be a DISA
    responsibility.

    The Air Force Materiel Systems Group’s software development environments
    housed in DISA facilities were covered by a DISA site accreditation, but that
    accreditation process did not include user representatives from the CDA, as
    required by the DITSCAP. DISA provided the Air Force CDA with a copy of
    the site accreditation letters for the DISA facilities, but did not provide
    information on vulnerabilities discovered during the accreditation process.
    DISA performed periodic vulnerability assessments using its Security Technical
    Implementation Guides (STIGs) and documented the results in a Security
    Readiness Review (SRR). DISA provided a summary of the results to the DISA
    DAA and a copy of the SRR to the DISA facility commander. DISA did not
    provide a copy of the SRR to the CDA and did not inform the CDA of the
    results of the SRR or any potential risks to the software development
    environments. The inclusion of the CDA user representative in the accreditation
    process could lead to identifying additional potential security vulnerabilities of
    the software development environments.


Consequences of Not Certifying and Accrediting Software
  Development Environments
    The consequence of not conducting certification and accreditation on each
    software development environment is that the unique risks involved in operating
    each software development environment were not fully assessed. Without a
    comprehensive risk assessment and adjudication of those risks by the DAA,
    there is no balance of risk versus operational need and the system has the
    potential of operating at an unacceptable level of risk. That could lead to a
    number of problems, including unauthorized access to the software development
    environment, alteration or destruction of the software libraries, and use of the
    software development environment to exploit vulnerabilities of the network or of
    other systems connected to the network.




                                        5
            Importance of Software Development Environment Security


      Software Development
                                                Operational System
      Environment




        Source Code Libraries                        Operational
        Baseline Libraries                             Data



      User Software
                                                 User Software
      Networks
                                                 Networks
      Compiler, Editor, etc.
                                                 Application Software
      Operating System
                                                 Operating System




    The figure illustrates that the software development environment is the system
    that supports development, builds the release materials used to deploy the new
    operational system, and protects the operational system while in development or
    maintenance. Just as the operational data depends on the security of the
    operational system, the confidentiality and integrity of the operational system
    software depends on the security of the software development environment.


Recommendations, Management Comments, and Evaluation
  Response
    A.1. We recommend that the Assistant Secretary of Defense (Command,
    Control, Communications, and Intelligence):

           a. Update DoD Instruction 5200.40 to explicitly include software
    development environments as systems that need to be certified and
    accredited.

            b. Establish a program of guidance and oversight to ensure the
    certification and accreditation of DoD Component and DoD contractor
    software development environments.



                                       6
      c. Establish a performance measure for designated approving
authorities to report the certification and accreditation status of DoD
Component and DoD contractor software development environments.

       d. Hold periodic reviews of that performance measure, with the goal
of 100 percent accreditation.

Assistant Secretary of Defense (Command, Control, Communications, and
Intelligence) Comments. The Assistant Secretary of Defense (Command,
Control, Communications, and Intelligence) stated that the Software
Management Office and the Defense-Wide Information Assurance Program are
working in a coordinated effort to review all appropriate policies and, where
necessary, will update those policies to address information assurance. The
review will also include the possible insertion of software development
environment certification and accreditation language. The Assistant Secretary
agreed that a program of guidance and oversight to ensure the certification and
accreditation of DoD Component and DoD contractor software development
environments should exist. However, the DoD Chief Information Office does
not have the resources nor the consent of the DoD Components for the operation
of such a program. The DoD Chief Information Office will examine the
feasibility and resources needed for a software development environment
accreditation effort within the Software Management Office. The Software
Management Office established a Software Metrics Integrated Product Team to
determine what measurements are necessary for the adequate management of
DoD software development environments. The Integrated Product Team will
assign designated approving authorities to report the certification and
accreditation status of DoD Component and DoD contractor software
development environments as a part of the team’s overall effort to improve
software management. The Software Management Office, in cooperation with
the Defense-Wide Information Assurance Program, will review certification and
accreditation procedures and status of DoD Component and DoD contractor
software development environments with a goal of 100 percent accreditation.

Evaluation Response. The Assistant Secretary’s proposed actions meet the
intent of Recommendations A.1.a., A.1.c., and A.1.d. The DoD Chief
Information Office’s examination of the feasibility and resources needed for a
software development environment accreditation effort does not fully meet the
intent of recommendation A.1.b. However, we believe that the proposed
actions of assigning designated approving authorities to report the certification
and accreditation status and the cooperative efforts of the Software Management
Office and the Defense-Wide Information Assurance Program to review and
maintain reports on the certification and accreditation status of DoD Component
and DoD contractor software development environments would meet the intent
of recommendation A.1.b. if continued on a cyclic basis.

In response to the final report, we request that the Assistant Secretary provide
the estimated date those policies will be updated with software development
environment certification and accreditation language; the estimated date the
Software Metrics Integrated Product Team will assign designated approving
authorities to report the certification and accreditation status of DoD Component
and DoD contractor software development environments; the estimated

                                    7
completion date for the certification and accreditation procedures and status
review; and the estimated completion dates for a time-phased approach to ensure
the certification and accreditation of the DoD Component and DoD contractor
software development environments.

Army Comments. Although not required to comment, the Army Materiel
Command nonconcurred with the recommendation to require accreditation of
Central Design Activities because the Central Design Activities do not have
fixed hardware and software configurations.

Evaluation Response. The recommendation was intended for the certification
and accreditation of the systems used by the Central Design Activities for
development and maintenance of DoD software, not for the Central Design
Activities as a whole.
A.2. We recommend that the Commander, Defense Information Systems
Agency Western Hemisphere, require Defense Enterprise Computing
Center Commanders to:

        a. Fully involve Central Design Activity user representatives in the
certification and accreditation process for software development
environments that the Defense Information Systems Agency provides for
Central Design Activities.

       b. Provide Central Design Activity Commanders the details of any
vulnerabilities discovered during the accreditation of software development
environments that the Defense Information Systems Agency provides for
Central Design Activity customers.

Defense Information Systems Agency Comments. The Defense Information
Systems Agency concurred, stating that a memorandum from the Chief,
Operations Division, will be issued to the Defense Enterprise Computing
Centers and Detachments, directing that the Central Design Activities be
involved in the Security Readiness Review process and that the results obtained
from the reviews be provided to the Central Design Activities and other
customers of the platforms.

Assistant Secretary of Defense (Command, Control, Communications, and
Intelligence) Comments. The Assistant Secretary stated that the DoD Chief
Information Office will request quarterly progress and status reports be sent
from DISA to the Software Management Office and that the two offices will
continue to work closely with each other.




                                   8
           B. Malicious Code Detection
           The management controls were inadequate to detect and remove
           malicious code from some software products in development at the three
           CDAs we visited. Controls were inadequate because the development
           teams did not review final source code for malicious code and because
           DoD policy does not address malicious code detection and removal. As
           a result, the CDAs cannot ensure that software produced by them does
           not contain malicious code.


Malicious Code
    Source Code. A programmer writes a program in a particular programming
    language. This form of the program is called the source program or, more
    generically, source code. Source code is the only format that is readable by
    humans. When you purchase programs, you usually receive them in their
    machine-language format. That means you can execute the programs directly,
    but you cannot read or modify them.

    Malicious Code. The National Information Systems Security (INFOSEC)
    Glossary defines malicious code as software or firmware capable of performing
    an unauthorized function on an information system. Malicious code includes
    viruses, worms, Trojan horses, logic bombs, and other “uninvited” software.

    Risk of Malicious Code. In the world of personal computers, “Easter eggs”
    are the name given creative gimmicks that programmers have hidden inside
    some popular desktop applications and hardware. They are called Easter eggs
    after the U.S. tradition of parents hiding eggs for their children to find. As
    programmers’ work is often uncredited, they may sneak their names into the
    programs with Easter eggs.
    By definition, Easter eggs are not damaging; however, Trojan horses, logic
    bombs, worms, and other malicious code can be hidden just as easily and later
    activated to cause damage to the system or to data. It is just as simple to put in
    a backdoor to a computer system, allowing unauthorized access at a later date
    for anything from stealing funds to spying. Once installed, malicious code is
    extremely hard to find because it can be small and hidden in the application.
    Detection methods require access to the source code, tools, experience with the
    programming language, and system knowledge.


Malicious Code Policy
    We could find no DoD policy reference to “Malicious Code.” However, asset
    protection and data integrity are frequently referenced. DoD Directive 5010.38,
    “Management Control (MC) Program,” August 26, 1996, requires each DoD
    component to implement a comprehensive system of management controls that

                                         9
    provides reasonable assurance that assets are safeguarded against waste, loss,
    unauthorized use, and misappropriation. DoD Directive 5200.28 requires
    safeguards to be in place to detect and minimize inadvertent modification or
    destruction of data and to detect and prevent malicious destruction or
    modification of data. The CDA software libraries are DoD assets and the
    source code they contain are data.


Controls for Detecting and Removing Malicious Code
    The three CDAs we visited had weak physical access controls to the
    programmer work areas. There were good procedures for adding and removing
    software development environment users, but no process that verified that the
    access list was correct and that the access activity was as expected. We
    evaluated projects where team passwords could be captured and used by
    someone else, tools were not used to highlight code changes, and code reviews
    checked only selected modules for correct function. In summary, the
    management controls on those projects were inadequate to deter, detect, and
    remove malicious code.

    Effective Detection Practices. A software development organization with a
    repeatable and defined development process uses commercial tools, documented
    processes, and trained teams to consistently produce quality software. It uses
    separation of duties and development practices to limit the opportunities for
    malicious code to be inserted without detection. The following development
    practices help deter and detect malicious code.

           •   Configuration management tools and procedures.

           •   Formal peer reviews.

           •   Coding standards checking.

           •   New and changed code reviews.

           •   Software quality assurance monitoring.

    See Appendix C for details on those development practices.

    An Example of a Good Process. We interviewed one project team with very
    good management control processes, though they were project specific and not
    consistent throughout the CDA. There was open access to the programmer
    work areas, but the servers with the software libraries were in locked rooms.
    At the start of each maintenance cycle, the last version of the system is used to
    create a test environment. When the code required an update, a design
    document was created with a description of the changes to be made to the code.
    After approval of the design document, the code to be changed was copied from
    the test environment to a floppy disk for the programmer. The code on the
    floppy is the only code that the programmer can change, though the programmer
    has read-only access to the entire test environment.

                                       10
    The programmer then completes the necessary changes and returns the floppy
    with the new code to the lead programmer. The new code is then compared to
    the original code using a text compare tool that highlights the changes. The lead
    programmer checks that the changes described in the design document were
    made and that no additional changes took place. The lead programmer uploads
    the new code to the test environment where it is tested for operation errors.
    After the new version is tested, the test environment is uploaded to the baseline
    library and the new baseline saved to compact disk. Access to the baseline
    library is limited to the lead programmer and an assistant. Virus detection runs
    every 2 hours on the test environment and the baseline. A security log is kept to
    track hacking attempts.

    Using a floppy to provide the programmers the code that they update effectively
    limits programmers’ access to only their assigned modules and compensates for
    the lack of physical access controls. The current lead programmer had been
    working on that project’s system for many years and had reviewed nearly all of
    the system’s code. The lead programmer would detect any malicious code when
    reviewing the changed code, which is a deterrent to the entry of malicious code.


Summary
    Programmer access controls were weak in most cases. Therefore, there was a
    need for controls over code changes to be robust, but most were not. Even so,
    code review teams reviewing each new and changed line of the final source code
    could have detected and removed malicious code. However, this was not done
    consistently. As a result, the CDAs cannot ensure that their software products
    do not contain malicious code.


Recommendation, Management Comments, and Evaluation
  Response
    B. We recommend that the Assistant Secretary of Defense (Command,
    Control, Communications, and Intelligence) update DoD policy to require
    that the development and maintenance of DoD software include a review of
    each new and changed line of final source code to deter, detect, and remove
    any malicious code.

    Management Comments. The Assistant Secretary concurred with the
    recommendation in theory. The Assistant Secretary stated that the
    implementation of this recommendation would likely exceed the resources of the
    Central Design Activities, the program managers, and the Component Chief
    Information Offices. The Software Management Office will examine the
    feasibility of the code inspection tools and applications that can review each new
    and changed line of final source code for malicious code; however, such tools
    may not be adequate to the task or may require future budgeting before


                                        11
implementation could occur. In addition, the Assistant Secretary stated that a
formal review of source code in commercial off-the-shelf products is not
possible.

Evaluation Response. The Assistant Secretary’s comments were not fully
responsive. The formal review of each new and changed line of final source
code is possible and practical. Some project teams already perform malicious
code reviews. Project teams could also include malicious code review in their
formal peer reviews, if the reviewed source code was saved and protected.
There are configuration management and other inspection tools available that
can identify new and changed lines of source code by comparison of current
versions to saved versions. Only the first code baseline would need a complete
review. We agree that commercial off-the-shelf software products cannot be
reviewed in the same way; however, known commercial off-the-shelf
vulnerabilities are currently tracked and reported by the Computer Emergency
Response Teams and the National Institute of Standards and Technology. In
response to the final report, we request that the Assistant Secretary reconsider
his comments and provide a time-phased approach to implementing the
recommendation.




                                   12
Appendix A. Evaluation Process

Scope and Methodology
    Work Performed. We reviewed and evaluated information assurance controls
    for software development environments at three CDAs. At the selected CDAs,
    we evaluated the implemented policy and general controls that protect software
    development environments and software libraries used to develop and maintain
    DoD systems. We also evaluated the controls that the CDAs had in place to
    identify and remove malicious code. We developed a questionnaire to help
    collect information and documentation from the CDAs. We also selected two
    active projects at each CDA and met with the project teams. We used the
    questionnaire responses and discussions with officials from the CDAs to
    evaluate their controls for protecting their software development environments
    and software libraries. We used the discussions with the project teams to
    evaluate the controls in place to identify and remove malicious code.

    DoD-Wide Corporate Level Government Performance and Results Act
    (GPRA) Coverage. In response to the GPRA, the Secretary of Defense
    annually establishes DoD-wide corporate level goals, subordinate performance
    goals, and performance measures. This report pertains to achievement of the
    following goal:

           FY 2000 DoD Corporate Level Goal 2: Prepare now for an uncertain
           future by pursuing a focused modernization effort that maintains U.S.
           qualitative superiority in key warfighting capabilities. Transform the
           force by exploiting the Revolution in Military Affairs, and reengineer the
           Department to achieve a 21st century infrastructure. (00-DoD-2)

    DoD Functional Area Reform Goals. Most DoD functional areas have also
    established performance improvement reform objectives and goals. This report
    pertains to achievement of the following functional area objectives and goals:

           • Information Technology Management Area. Objective: Ensure
             DoD’s vital information resources are secure and protected.
             Goal: Build information assurance framework. (ITM-4.1)

           • Information Technology Management Area. Objective: Ensure
             DoD’s vital information resources are secure and protected.
             Goal: Build information assurance architecture and supporting
             services. (ITM-4.2)

           • Information Technology Management Area. Objective: Ensure
             DoD’s vital information resources are secure and protected.
             Goal: Improve acquisition processes and regulations. (ITM-4.3)




                                       13
           • Information Technology Management Area. Objective: Ensure
             DoD’s vital information resources are secure and protected.
             Goal: Assess information assurance posture of DoD operational
             systems. (ITM-4.4)

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Information Management and Technology high-risk area.

    Use of Computer-Processed Data. We did not use computer-processed data to
    perform this evaluation.

    Evaluation Type, Dates, and Standards. We performed this economy and
    efficiency evaluation from November 1999 through July 2000 in accordance
    with standards implemented by the Inspector General, DoD.
    Contacts During the Evaluation. We visited or contacted individuals and
    organizations within DoD. Further details are available on request.


Management Control Program
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26,
    1996, requires DoD organizations to implement a comprehensive system of
    management controls that provides reasonable assurance that programs are
    operating as intended and to evaluate the adequacy of the controls.

    Scope of Review of Management Controls. We did not review the
    management control program related to the overall evaluation objectives because
    DoD recognized Information Assurance as a material management control
    weakness area in the FY 1999 Annual Statement of Assurance. However, we
    did review the adequacy of management controls for protecting software
    development environments used by the CDAs to develop and maintain DoD
    software (see the Finding section).


Prior Coverage
    No prior coverage directly related to our evaluation objectives has been
    conducted during the last 5 years. However, there have been numerous reports
    related to information assurance in general. Two Inspector General, DoD,
    reports summarize all of the General Accounting Office and DoD audit reports
    issued on information assurance from January 1, 1995, through March 31,
    2000. Unrestricted Inspector General, DoD, reports can be accessed over the
    Internet at http://www.dodig.osd.mil/audit/reports.




                                       14
Inspector General, DoD
     Inspector General, DoD, Report No. D-2000-124, “Information Assurance
     Challenges—A Summary of Audit Results Reported December 1, 1998, through
     March 31, 2000,” May 15, 2000.

     Inspector General, DoD, Report No. 99-069, “Summary of Audit Results—DoD
     Information Assurance Challenges,” January 22, 1999.




                                    15
Appendix B. Military Department Central
            Design Activities

Central Design Activities
     For the purpose of this evaluation, a CDA is defined as a designated
     organization (or segment thereof) within a component that, at a minimum, has
     responsibility for designing, converting, coding, testing, documenting, or
     subsequently maintaining or modifying computer operating or applications
     software for use at more than one location.

     While each Military Department’s definition of a CDA may vary slightly from
     the definition above, they each identified their CDAs (see table below) and
     noted that they had other software development groups that were not CDAs.
     Those other software development groups are not considered CDAs because
     they support software only for the business area organization they belong to, as
     opposed to more than one location as our definition of CDAs requires.

                        Military Department Central Design Activities

             Army
               Logistics Systems Support Center
               Industrial Logistics Systems Center
               Software Development Center Washington
               Software Development Center Lee
               Army Total Personnel Command

             Navy
               Bureau of Naval Personnel
               Fleet Material Support Office
               Naval Aviation Depot Operations Center
               Naval Computer and Telecommunications Area Master Station,
                  Atlantic
               Naval Computer and Telecommunications Station, Jacksonville
               Naval Computer and Telecommunications Station, Pensacola
               Naval Computer and Telecommunications Station, Washington
               Naval Education and Training Professional Development and
                  Technology Center
               Naval Reserve Information Systems Office

             Air Force
                Materiel Systems Group
                Standard Systems Group




                                        16
Appendix C. Effective Development Practices
   A software development organization with a repeatable and defined development
   process uses commercial tools, documented processes, and trained teams to
   ensure it produces quality software. It uses separation of duties and
   development practices to limit the opportunities for malicious code to be inserted
   without detection. The following are some of the development practices used to
   guard against the insertion of malicious code.

   Configuration Management Tools and Procedures. Configuration
   management is the means by which the content, change, or status of shared
   information within a project is managed and controlled. The purpose of
   configuration management is to establish and maintain the integrity and control
   of software products. No new code can be written without a change
   authorization. Configuration management tools also limit access to final
   versions of code.

   Formal Peer Reviews. Configuration management and formal peer review are
   software development best practices identified by the DoD Software Acquisition
   Best Practices Initiative. Formal peer reviews use a trained team approach to
   ensure that the program design is correctly implemented. Technical
   documentation and code are inspected. Formal peer reviews can eliminate
   approximately 80 percent of all software defects.

   Coding Standards Checking. Depending on the computer language, there are
   software tools that can analyze source code to check that programming standards
   have been followed, that all variables are used, and that there is no dead
   (inaccessible) code. Use of standards checking tools can quickly identify code
   that does not follow organizational coding standards.

   New and Changed Code Reviews. The change management features of a
   configuration management tool or a separate text compare tool can highlight the
   changes in an updated module by comparing it to the original baseline module.
   Changes can then be reviewed for code defects, standards violations, and
   malicious code.

   Software Quality Assurance Monitoring. Software quality assurance consists
   of an independent team of people that monitors changes to the baseline
   throughout the development process. Software quality assurance involves
   regular reviews throughout the development process to ensure that any defects
   built into the code are detected as early as possible. The software quality
   assurance team works to verify the implementation of standards and processes
   that would help detect malicious code.




                                       17
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Command, Control, Communications, and Intelligence)
  Deputy Assistant Secretary of Defense, Deputy Chief Information Officer
  Deputy Assistant Secretary of Defense, Security and Information Operations
      Director, Infrastructure and Information Assurance
      Director, Policy Integration and Operations

Joint Staff
Director, Joint Staff
  Director, Operations
  Director, Command, Control, Communications, and Computers

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Commanding General, Army Communications and Electronics Command
  Commander, Software Development Center Lee
Auditor General, Department of the Army

Department of the Navy
Commander, Naval Supply Systems Command
  Commanding Officer, Fleet Material Support Office
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Commander, Air Force Materiel Command
   Executive Director, Materiel Systems Group
Inspector General, Department of the Air Force
Auditor General, Department of the Air Force




                                         18
Other Defense Organizations
Director, Defense Finance and Accounting Service
Director, Defense Information Systems Agency
   Commander, Defense Information Systems Agency Western Hemisphere
Director, Defense Logistics Agency
Director, National Security Agency
   Inspector General, National Security Agency
Inspector General, Defense Intelligence Agency
Inspector General, National Imagery and Mapping Agency

Non-Defense Federal Organizations
Office of Management and Budget
  Office of the Information and Regulatory Affairs
General Accounting Office
  Director, Defense Information and Financial Management Systems, Accounting and
      Information Management Division

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology,
  Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform




                                       19
Assistant Secretary of Defense (Command, Control,
Communications, and Intelligence) Comments




                      21
22
23
Defense Information Systems Agency
Comments




                  24
25
26
Department of the Army Comments




                 27
Final Report
Reference




Revised
Page 16




               28
29
Evaluation Team Members
   The Audit Followup and Technical Support Directorate, Office of the Assistant
   Inspector General for Auditing, DoD, prepared this report. Personnel of the
   Office of the Inspector, DoD, who contributed to the report are listed below.

     David A. Brinkman
     Kenneth H. Stavenjord
     Dan B. Convis
     Michael D. Walker
     Benzad B. Akavan
     James B. Mitchell
     Kevin W. Klein
